HHS/OIG-Audit--"Review of Medical Assistance Payments Under the Refugee Resettlement Program in Florida, (A-04-98-00119)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medical Assistance Payments Under the Refugee Resettlement Program in Florida," (A-04-98-00119)
June 10, 1998
Complete
Text of Report is available in PDF format (667 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report identified 8,445 refugees who potentially received cash assistance payments after their period of eligibility
had expired. From a randomly selected sample of 200 refugees that received Refugee Cash Assistance payments, we determined
that 88 also received Refugee Medical Assistance (RMA). Of the 88, 64 refugees had payments totaling $30,174 made on their
behalf after their eligibility had expired. Projecting these payments to the population, we estimate that the amount of
RMA payments made past the period of eligibility was $409,759.
The ineligible payments occurred because the Florida Department of Children and Families (DCF) did not have edits in its
computerized system to identify and automatically terminate refugees whose period of eligibility had expired.
We are recommending that DCF make a financial adjustment of $409,759 for the ineligible medical assistance payments. We
are also recommending procedural changes to improve DCF's administration of the Refugee Resettlement Program.